                                                  United     late Department of State
                                                  and the Broadcasting Board of Governors

                                                  Office of I 11   pee tor   Gen.eral

                                                    JAN 17 2012




Dear Mr. Chairman:


In compliance with Section 232 of the "William Wilberforce Trafficking Victims
Protection Reauthorization Act of 2008," Public Law 110-457 (December 23,
2008) (TVPRA), the Department of State (Department), Office of Inspector
General (OIG), is pleased to submit this summary of activities and findings related
to trafficking in persons (TIP) for the period January 1 through December 31,
2011.


OIG used a cross-disciplinary approach to oversee the Department's efforts to
enforce its zero-tolerance policy regarding TIP-related activities. All three of
OIG's action offices (Audits (AUD), Inspections (ISP), and Investigations (INV)),
have performed audits, inspections, evaluations, and investigations. OIG's
published reports inform the Department, Congress, and the public on the status of
human trafficking issues related to the Department of State.


Summaries of each office's 2011 activities and findings related to TIP are as
described.


Office of Audits (AUD)


In 2011, AUD issued three reports that specifically focused on TIP in the Middle
East, South Asia, and the Asia-Pacific region. AUD also began incorporating TIP
objectives into all audits and evaluations involving Department contractors and
subcontractors in Afghanistan, Iraq, and Pakistan to address widespread concerns
about trafficking in those countries. In 2011, AUD issued one Afghanistan
contract report that included the new TIP objective.



The Honorable
        JohnF. Kerry, Chairman,
             Committee onForeign Affairs,
                   United States Senate.
                                           -2-

In January  2011, OIG issued the report Performance Evaluation of Department of
State Contracts To Assess the Risk of Trafficking in Persons Violations in Four
States in the Cooperation Council for the Arab States of the Guif(MERO-I-11-06).
The evaluation objectives were to determine whether (1) Department-funded
contractors or subcontractors were engaged, knowingly or unknowingly, in acts
related to trafficking in persons and   (2) U.S. embassies were following Federal
guidelines to effectively monitor Department-funded contractors and
subcontractors for engagement in acts related to TIP.


During the evaluation, OIG found no direct evidence that contractors had violated
the Trafficking Victims Protection Act of    2000 or Federal Acquisition Regulation
(FAR) clause   52.222-50, "Combating Trafficking in Persons." However, using the
International Labor Organization indicators for trafficking, OIG found several
contractor practices that increased the risk of TIP. Specifically, OIG determined
that some contractor employees paid recruiter fees to obtain their jobs, surrendered
their passports to their employers, and lived in substandard housing. The report
contained seven recommendations, six that addressed specific issues at the
embassies visited (Abu Dhabi, Kuwait City, Muscat, and Riyadh) and one that
addressed the Department's overall guidance and training for personnel who
monitor contractor practices and activities for potential TIP violations.


In March 2011, OIG issued the report Performance Evaluation of Department of
State Contracts to Monitor Vulnerability to Trafficking in Persons Violations in the
Levant (MERO-I-11-07). The evaluation objective was to determine (1) whether
Department-funded contractors or subcontractors were engaged, knowingly or
unknowingly, in acts related to TIP and    (2) whether U.S. embassies were following
federal guidelines to effectively monitor Department-funded contractors and
subcontractors and ascertain whether they were engaged in TIP-related activities.
OIG evaluated 10 Department contracts at U.S. Missions to Israel, Jordan,
Lebanon, and Syria and Consulate General Jerusalem and found no direct evidence
that contractors had violated FAR clause    52.222-50 or that management had
engaged in actions that would indicate a heightened risk of TIP activities. The
report contained no recommendations and recognized Embassy Amman for its
translation of the FAR clause into Arabic, Embassy Damascus for its screening for
underage employees, and Embassy Tel Aviv for its investigation into whether any
contractor had a history or ongoing suspicions of TIP problems.
                                         -3-


In August 2011, OIG issued the report DynCorp Operations and Maintenance
Support at Camp Falcon in Kabul, Afghanistan (MERO-I-11-12). One of the
objectives of this evaluation was to determine whether DynCorp International, the
contractor, complied with the terms of the FAR clause. OIG reviewed the
DynCorp contracts and conducted structured interviews with third-country national
guards and DynCorp staff members. Based on the document reviews and
interviews with these individuals, OIG found no evidence that DynCorp had
engaged in TIP.


In October 2011, OIG issued the report Audit of Bureau of East Asian and Pacific
Affairs Compliance With Trafficking in Persons Requirements (AUD/IP-12-02).
The audit objective was to determine to what extent Department employees in the
Bureau of East Asian and Pacific Affairs (EAP) and the Asia-Pacific region were
complying with laws, regulations, and policies established to prevent and detect
TIP activities on Department-awarded contracts. OIG found no evidence of TIP­
related activities involving Department employees or contractors in EAP. As part
of the audit, OIG distributed a General Awareness Survey to Department
contractors in the Asia-Pacific region to test the employees' awareness of TIP
issues. The survey indicated that many employees were unaware of what
constituted a TIP violation, the consequences for such violations, or to whom they
should report TIP violations. The survey also indicated that many Department
contractors were unaware that FAR clause 52.222-50 applied to them. OIG
concluded that the lack of awareness may result in an underrepm1ing of TIP
violations. OIG also found that Department contracting officials either did not
consistently include the FAR clause or included an incorrect version of the clause
in their contracts. Embassy staff immediately responded to OIG's finding by
initiating modifications to embassy contracts.


OIG recommended that the Department include a TIP policy section in the      Foreign
Affairs Manual, develop a code of conduct that strictly prohibits TIP activities, and
designate an office where Department personnel can directly report suspected TIP
violations. The Ambassador-at-Large for the Office of Monitor and Combat
Trafficking in Persons (G/TIP) concurred with the recommendations.


In 2012, AUD will be conducting a compliance review to determine whether the
Department took adequate corrective action in response to the recommendations
made in the rep011 Performance Evaluation of Department of State Contracts To
Assess the Risk of Trafficking in Persons Violations in Four States in the
                                         -   4   -




Cooperation Council for the Arab States of the       Gulf(l\IIERO-I-11-06). AUD will
also continue to include a TIP objective in its contract audits. Fut1her, AUD plans
to begin conducting unannounced spot checks of the living and working conditions
for third-country personnel employed on U.S. Government contracts. Because OIG
has field offices in Afghanistan, Iraq, and Pakistan, OIG plans to conduct spot
checks at these locations.


Office of Inspections (ISP)


ISP included TIP among its areas of emphasis for all embassy and consulate
inspections conducted inFY 2011. Inspectors reviewed a sampling of contracts
over $2,500 at 15 posts to determine ifF AR clause 52.222-50 was included in the
contracts and if American officers responsible for overseeing the contracts were
aware of or suspected trafficking activities. Eleven of 15 posts included the
requiredFAR clause in contracts sampled by inspectors. Of those posts that did
not include the clause, one post (Seoul) had theFAR clause in recent contracts but
not in those contracts that were 2 years old and older. This observation was
                                                  Audit of Bureau of East Asian
consistent with information contained in the report
and Pacific Affairs Compliance With Trafficking in Persons Requirements
(AUD/IP-12-02). When the inspectors found contracts that did not include the
clause (Embassies Copenhagen, Tel Aviv, and Seoul and the Regional
Procurement Suppm1 OfficeFrankfut1), embassy staff immediately began the
process of modifying the contract. Inspectors also found that American officers
responsible for overseeing contracts (including general services officers, regional
security officers, facilities managers, and Bureau of Overseas Buildings Operations
program mangers) at those 15 posts were not aware of nor suspected any
trafficking activities.


Inspectors also queried the chairs ofForeign Service National Committees at those
15 posts to determine if any were aware of or suspected trafficking activities.
None had. Similarly, none of the regional security officers performing background
checks on contract employees at those 15 posts had come across information
leading them to suspect the contract employees had been subjected to trafficking
activities.
                                         -5-

In FY 2012, ISP inspection teams will continue to review contracts for the
appropriate clauses, as well as assess contract oversight, in those cases where third­
country nationals are hired. ISP will also conduct an inspection of the Office to
Monitor and Combat Trafficking in Persons to assess its role, particularly with its
broader mission of working with embassies to provide input to the annual
Department TIP repm1.


Office of Investigations (INV)


Recognizing the importance of combating global TIP, INV began a proactive effort
to engage the broader Federal law enforcement community in pursuing TIP
referrals and allegations abroad. INV coordinated with the Department of Justice
(DOJ) Human Trafficking Prosecution Unit, as well as with fellow Federal
investigative organizations with TIP responsibilities, to determine current law
enforcement involvement and determine ways to broaden law enforcement
involvement in combating TIP. INV also participated in G/TIP briefings external
to the law enforcement community to gain a broader perspective on the issues.
INV established a pat1nership with the Department' s Office of the Procurement
Executive, as well as with the Bureau of Diplomatic Security, to ensure
Depat1ment TIP-related allegations are brought to the attention of the appropriate
law enforcement entity. INV also joined a TIP working group in Baghdad, which
includes members from other Depat1ment entities, DOJ, the International
Organization for Migration, and non-governmental organizations.


INV undertook an effot1 to educate the law enforcement community about TIP
investigations and prosecutions, collaborating with the International Contract
Corruption Task Force to sponsor a multi-agency briefing by DOJ's Human
Trafficking Prosecution Unit. OIG' s effort was designed to motivate the broader
Federal investigative community into becoming more engaged in this area.


During this reporting period, INV actively pursued investigative leads and referrals
related to suspected TIP violations and established internal policy requiring its
Fraud Division to conduct preliminary investigations into suspected TIP violations
because of the propensity of such activity to be related to other criminal activity
and/or FAR violations, particularly false claims.
                                         -   6   -




During calendar year 2011, INV initiated four investigations regarding alleged TIP
violations by both contractor and Department personnel, three of which are
ongoing. On June 30, 2011, as a result of an OIG investigation, a company
providing security services to Embassy Kabul entered into a civil settlement
agreement with DOJ in the amount of $7.5 million to settle allegations that the
company had engaged in multiple contract violations, including violating theFAR
provisions on Combating Trafficking in Persons. As part of the settlement, the
contractor specifically admitted that it had not implemented the requiredFAR
policies on TIP, failed to prevent its personnel who were working on the contract
from procuring commercial sex acts, and submitted claims for payment of guard
services by guards who procured commercial sex acts.


OIG remains committed to providing vigorous oversight of the Department's
efforts to combat TIP-related activities and to investigate TIP-related violations.


                                       Sincerely,




                                       Harold W. Geisel
                                       Deputy Inspector General
